     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region I
                                                                          John F. Kennedy Federal Building
                                                                          Room 2425
                                                                          Boston, MA 02203

July 21, 2011

Report Number: A-01-11-00004

JudyAnn Bigby, M.D.
Secretary
Executive Office of Health and Human Services
One Ashburton Place
11th Floor
Boston, MA 02108

Dear Dr. Bigby:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of the Massachusetts Executive Office of Health and
Human Services Buy-In of Medicare Parts A and B for the Period July 2008 Through December
2009. We will forward a copy of this report to the HHS action official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-01-11-00004 in all correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services

Enclosure

HHS Action Official:

Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




 REVIEW OF THE MASSACHUSETTS
EXECUTIVE OFFICE OF HEALTH AND
  HUMAN SERVICES BUY-IN OF
MEDICARE PARTS A AND B FOR THE
  PERIOD JULY 2008 THROUGH
        DECEMBER 2009




                       Daniel R. Levinson
                        Inspector General

                           July 2011
                         A-01-11-00004
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                 EXECUTIVE SUMMARY

BACKGROUND

“Dual eligibles” are individuals who are eligible for benefits under both Medicare and Medicaid
because they are poor and either elderly or disabled. Dual eligibles may be eligible for the
Hospital Insurance Program (Medicare Part A) enrollment for hospital care, the Supplementary
Medical Insurance Program (Medicare Part B) insurance coverage for physician care, or both
Medicare A and B coverage. Medicare premiums, however, are difficult for some beneficiaries
to pay. Section 1843 of the Social Security Act addresses this problem by creating an
arrangement, known as the “buy-in program,” under which participating States with Medicaid
plans may enroll dual eligibles in Medicare Parts A and B and pay the monthly premium on
behalf of these beneficiaries.

At the Federal level, the Centers for Medicare & Medicaid Services (CMS) has overall
responsibility for administering the buy-in program. In Massachusetts, the Executive Office of
Health and Human Services (State agency) is responsible for administering the State’s buy-in
program.

CMS provides the State agency the Summary Accounting Statement (SAS) to indicate the
monthly premiums due and the amount for the State to claim Federal share. The State agency is
responsible for ensuring the accuracy of the amount claimed when preparing the Form CMS-64,
Quarterly Statement of Expenditures for the Medical Assistance Program.

Our audit included Part A and B premiums claimed to CMS for the quarters ending September
2008 through December 2009.

OBJECTIVE

Our objective was to determine whether the State agency claimed Federal share for Medicare
Part A and B premiums it paid on behalf of Medicaid beneficiaries in accordance with
Federal requirements.

RESULTS OF REVIEW

The State agency claimed Federal share for Medicare Part A and B premiums it paid on behalf of
eligible Medicaid beneficiaries in accordance with Federal requirements. For example, there was
no variance between the SAS, payments per the Medicaid Management Information System, and
the expenditures reported on the Form CMS-64. Accordingly, this report contains no
recommendations.




                                               i
                                                  TABLE OF CONTENTS

                                                                                                                         Page

INTRODUCTION..........................................................................................................1

          BACKGROUND .................................................................................................1
              Medicaid’s Role in Paying for Part A and B Premiums ..........................1
              Administering the Buy-In Program .........................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................2
               Objective ..................................................................................................2
               Scope ........................................................................................................2
               Methodology ............................................................................................2

RESULTS OF REVIEW ...............................................................................................3




                                                                    ii
                                      INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act) the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Medicaid’s Role in Paying Medicare Part A and B Premiums

“Dual eligibles” are individuals who are eligible for benefits under both Medicare and Medicaid
because they are poor and either elderly or disabled. Dual eligibles may be eligible for the
Hospital Insurance Program (Medicare Part A) enrollment for hospital care, the Supplementary
Medical Insurance Program (Medicare Part B) insurance coverage for physician care, or both
Medicare Part A and B coverage. Medicare premiums are difficult for some beneficiaries to pay.
Section 1843 of the Act addresses this problem by creating an arrangement, known as the “buy-
in program,” under which participating States with Medicaid plans may enroll dual eligibles in
Medicare Parts A and B and pay the monthly premium on behalf of these beneficiaries. The
State is eligible to receive Federal financial participation (Federal share) through the Medicaid
program to assist in paying these Part A and B premiums for certain groups of dual eligibles.
States may enter into a State Buy-In Agreement with CMS to enroll eligible beneficiaries in
Parts A and B and pay their premiums (buy-in).

Monthly Medicare Part A and B premiums the States pay on behalf of individuals enrolled under
State Buy-In Agreements are considered vendor payments and most are reimbursable under
Medicaid at the Federal medical assistance percentage (FMAP), which is State specific and
calculated pursuant to section 1905(b) of the Act. For the quarters ending September 2008
through December 2009, Massachusetts’ FMAP ranged from 50 percent to 100 percent.

Administering the Buy-In Program

At the Federal level, CMS has overall responsibility for administering the buy-in program. CMS
maintains a buy-in master file that contains information on beneficiaries eligible for buy-in. It
uses the buy-in master file to prepare monthly billing notices for the States for Part A and B
premiums and to identify those premiums eligible to be claimed for Federal share.

In Massachusetts, the Executive Office of Health and Human Services (State agency) is
responsible for administering the State’s buy-in program. The State is responsible for
establishing internal procedures and systems to identify individuals eligible for buy-in,
communicating this information to CMS, and responding to actions taken by CMS on individual
cases. As part of this responsibility, the State agency is responsible for the accuracy of the



                                                1
individuals’ eligibility codes and is required to update these codes routinely, including the
mandatory buy-in eligibility codes, in the CMS master file.

The State agency is also responsible for verifying the accuracy and validity of the information in
the buy-in processing systems. If the information in the systems is erroneous, it is the State
agency’s responsibility to correct, or have CMS correct, the errors. Through the use of eligibility
codes, individuals in the buy-in program are grouped into various eligibility categories. These
eligibility codes identify individuals in the buy-in program whose premiums are eligible to be
claimed for Federal share.

CMS used the State’s updates to amend the CMS buy-in master file. Using the master file, CMS
provided the State agency the Summary Accounting Statement (SAS) to indicate the monthly
premiums due and the amount for the State to claim Federal share.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed Federal share for Medicare
Part A and B premiums it paid on behalf of Medicaid beneficiaries in accordance with
Federal requirements.

Scope

Our audit included $513,461,757 of Part A and B premiums paid by the State agency and
claimed to CMS for the quarters ending September 2008 through December 2009.

Our review of internal controls was limited to an understanding of the State agency’s procedures
for the following: identifying and reporting to CMS individuals in eligible buy-in categories,
recording and paying Medicare premiums as billed by CMS, and claiming Federal share
as applicable.

We conducted fieldwork at the Medicaid agency in Massachusetts from March through
June 2011.

Methodology

To accomplish our audit objective, we:

   •    reviewed the Federal and State regulations, policies, and procedures related to buy-in,
        including the CMS-approved State plan, CMS Buy-In Program Manual, and
        Massachusetts’ buy-in agreements;

   •    interviewed CMS, Massachusetts State Auditors, and State agency officials;




                                                 2
   •   obtained and compared CMS’s monthly SAS for Part A and B premiums to the Medicaid
       Management Information System (MMIS) and Form CMS-64, Quarterly Statement of
       Expenditures for the Medical Assistance Program; and

   •   reviewed a judgmentally selected sample of 20 beneficiaries whose monthly premiums
       were reimbursed through the buy-in program to determine whether these beneficiaries
       were eligible for Federal share.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective.

                                   RESULTS OF REVIEW

The State agency claimed Federal share for Medicare Part A and B premiums it paid on behalf of
eligible Medicaid beneficiaries in accordance with Federal requirements. For example, there was
no variance between the SAS, payments per the Medicaid Management Information System, and
the expenditures reported on the Form CMS-64. Accordingly, this report contains no
recommendations.




                                                3
